OFFICE OF INSPECTOR GENERAL


AUDIT OF THE ADEQUACY
OF USAID’S ANTITERRORISM
VETTING PROCEDURES
AUDIT REPORT NO. 9-000-08-001-P
November 6, 2007




WASHINGTON, DC
(This page intentionally left blank)
Office of Inspector General


November 6, 2007

MEMORANDUM

TO:             Acting Director, Office of Security, Randy Streufert
                Director, Office of Acquisition and Assistance, Maureen Shauket

FROM:           Director, Performance Audits Division, Steven H. Bernstein

SUBJECT:        Audit of the Adequacy of USAID’s Antiterrorism Vetting Procedures
                (Report No. 9-000-08-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments on our draft report and have incorporated them where
appropriate. We have included your comments in their entirety as appendix II.

The report contains eight recommendations intended to improve USAID’s antiterrorism
vetting procedures. Based on your comments and the documentation provided, we
consider that management decisions have been reached on all of the recommendations
with the exception of Recommendation No. 5. Determinations of final action for all of the
recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC) after the proposed actions are completed.

Thank you for the cooperation and courtesy extended to the audit team during this review.
(This page intentionally left blank)
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

     USAID Participates in Interagency
     Working Group to Develop an Agency
     Counterterrorism Plan ............................................................................................... 7

     USAID Should Approve Guidance for a
     Worldwide Antiterrorism Vetting
     Program .................................................................................................................... 8

     USAID Offices Should Unify Interim
     Office Antiterrorism Procedures ............................................................................... 10

     USAID Should Develop a Database
     for Worldwide Antiterrorism Vetting........................................................................... 12

     USAID Vetting Program Should Include
     U.S. and Non-U.S.-based Partners ........................................................................... 13

     USAID Should Publicize its Intent to
     Maintain Information on U.S. Citizens ....................................................................... 15

     USAID Should Improve Management
     Controls Over Recording Transactions .................................................................... 17

Evaluation of Management Comments ....................................................................... 20

Appendix I – Scope and Methodology ........................................................................ 23

Appendix II – Management Comments ....................................................................... 25

Appendix III – Statutes, Regulations, and Executive Orders .................................... 33

Appendix IV – USAID Guidance................................................................................... 35

Appendix V – Map: Terrorism Threat in Countries with USAID Activities............... 37

Appendix VI – USAID Offices’ Antiterrorism Roles and Responsibilities ............... 39

Appendix VII – USAID/West Bank and Gaza Vetting Process................................... 41
Appendix VIII – Data Integrity Board Decision Process ............................................ 43

Appendix IX – Comparison of Acquisitions Versus Assistance ............................. 45
SUMMARY OF RESULTS
The Performance Audits Division of USAID’s Office of Inspector General designed this
audit to determine whether USAID’s antiterrorism vetting policies, procedures, and controls
are adequate to reasonably ensure that assistance is not provided to terrorists (page 4).

The audit determined that USAID’s policies, procedures, and controls are not adequate to
reasonably ensure against providing assistance to terrorists. In fact, except as noted
below, these policies or procedures do not require the vetting of potential or current USAID
partners. Furthermore, sufficient management controls have not been developed to
reasonably prevent aid from being inadvertently provided to terrorists. However, USAID
has taken some antiterrorism actions. For instance, USAID/West Bank and Gaza, the
Office of Security, and the Office of Acquisition and Assistance have developed some
guidance to be used by mission officials, security professionals, and agreement officers.
This guidance includes checking against a U.S. Department of Treasury list for designated
terrorists, obtaining certifications from grantees attesting that they have not supported
terrorists, and including antiterrorism clauses in grants and contracts (pages 5 - 6). In
addition, USAID participated in an interagency working group to develop a counterterrorism
plan (page 7). Although USAID has funded some grantees that have had terrorist
affiliations, it took appropriate corrective action by cutting off funding in the two cases
discussed in this report (pages 8 - 9).

To decrease the risks of inadvertently providing funding or material support to terrorist
entities, USAID should issue guidance for a worldwide antiterrorism vetting program
(pages 8 - 10). Because the issuance of this guidance may take some time, USAID, in the
short term, should combine the different antiterrorism procedures currently in place and
develop a database for worldwide vetting. Its vetting program should include U.S. and non-
U.S.-based partners (pages 10 - 14), and USAID should publicize its intent to maintain
information on U.S. citizens and legal aliens for vetting purposes (pages 15 - 16). Finally,
USAID should also improve management controls for the data accuracy and completeness
of Agency award information (pages 17 - 19).

Accordingly, we made the following recommendations to the Office of Security:

   •   Coordinate with other USAID offices to finalize draft antiterrorism guidance
       and establish milestones for publication (page 10).

   •   Develop internal procedures for documenting results of vetting decisions,
       along with an appeals process to be used when offices disagree about the
       vetting results (page 11).

   •   Develop a briefing document that summarizes antiterrorism roles and
       responsibilities of USAID offices and disseminate the document for Agency
       use (page 11).

   •   Develop and then implement a plan to expand its antiterrorism vetting
       database for worldwide use (page 13).




                                                                                          1
   •   Develop, implement, and communicate procedures to vet U.S. and non-
       U.S.-based partners where appropriate (page 14).

   •   Review proposed guidance to ensure that it addresses antiterrorism
       measures for USAID partners conducting multicountry programs (page 19).

We also made the following recommendations to the Office of Acquisition and Assistance:

   •   Incorporate USAID’s worldwide antiterrorism guidance, when issued, into its
       acquisition and assistance guidance where appropriate (page 10).

   •   Develop procedures to ensure that database information regarding
       awards is complete and accurate, and is sent to responsible offices (page
       19).

Management decisions were reached on all recommendations with the exception of
Recommendation No. 5. Management’s comments are included in their entirety in
appendix II.




                                                                                          2
BACKGROUND
The 9/11 Commission concluded that the al-Qaida terrorist group required about
$450,000 to conduct the September 11, 2001, attacks that killed nearly 3,000 people
and caused billions of dollars in economic losses. The Commission found that the
terrorist group exploited the sympathies of employees in certain foreign branches of
large, international charities and controlled entire charities through strategically
positioned operatives to finance its war against the United States. The same
vulnerabilities exist for U.S. Government (USG) agencies, such as USAID, that rely on
nongovernmental organizations as partners to conduct their foreign assistance
programs.

Both Executive Order (E.O.) 13224 and the USA PATRIOT Act state that the USG policy
is to deny terrorists and terrorist organizations access to funding, material support and
resources (see appendix III). To mitigate some of the risks of inadvertently funding
terrorists, officials from the Office of Security and other offices use a multifaceted
approach that includes the use of antiterrorism clauses and certifications for potential
and current recipients, program monitoring, vetting, and auditing. A key tool in
implementing and enforcing this policy is “vetting” or comparing identifying information 1
about individuals against information contained in databases developed and maintained
by intelligence agencies. Vetting, as an intelligence and security process, helps USAID
to reasonably ensure that it avoids funding or providing material support and resources
to terrorists or terrorist organizations.

At USAID, various offices and missions use different measures to decrease the risk that
terrorists will receive Agency funds. The Office of Security (SEC) is responsible for
developing antiterrorism policies and procedures and for conducting some of the vetting
of potential USAID partners at the request of some of the missions. In addition, USAID’s
Office of Acquisition and Assistance (OAA) and USAID/West Bank and Gaza have
issued various directives, orders, and guidance to address terrorist financing issues.
Moreover, both SEC and USAID/West Bank and Gaza have conducted vetting of
potential recipients. As shown in appendix IV, USAID has published a number of
internal directives that address terrorist financing issues and specific processes
designed to eliminate sources of terrorist financing.

To ensure that USAID-funded assistance does not inadvertently provide support for
terrorism, several offices play distinct roles in employing antiterrorism measures since
USAID conducts programs in countries where terrorism is a threat (appendix V). In
1999, USAID named a coordinator for counterterrorism within SEC. The coordinator’s
role includes representing the Agency on counterterrorism matters throughout the
executive branch and liaising with the U.S. intelligence community. Several offices
worldwide carry out antiterrorism measures on an ad hoc basis – not systematically.
Some missions rely on U.S. embassies that work in the same countries to conduct
vetting. The Agency uses a more comprehensive approach for vetting potential

1
  Identifying information about an individual screened for terrorist connections may include,
among other things, a person’s full name and aliases, date and place of birth, nationality,
address, and passport number.



                                                                                           3
recipients of assistance for activities to be conducted in the West Bank and Gaza, the
only area of USAID operations where vetting is mandated by statute.

In 2003, Congress imposed requirements contained in the fiscal year (FY) 2003
congressional appropriation applicable to Economic Support Funds for USAID
assistance to the West Bank and Gaza. The appropriation required that the Secretary of
State take all appropriate steps to ensure that assistance is not provided to entities or
individuals engaged in terrorist activity. To cite a recent example, Hamas 2 achieved an
election victory in the West Bank and Gaza in January 2006. USAID subsequently
designed its activities in the region to provide assistance to its partners that did not have
association or contact with the Palestinian Authority.

In March 2007, a newspaper article 3 alleged that USAID provided funding to Palestinian
universities that had participated in the “advocacy, support, or glorification” of terrorist
activity.

AUDIT OBJECTIVE
The Office of Inspector General’s Performance Audits Division conducted this audit as a
result of a congressional request to investigate and report on both the specific
allegations in the news article 4 and the general effectiveness of USAID’s antiterrorism
vetting procedures. Therefore, this audit was designed to answer the following question:

    Are USAID’s antiterrorism vetting policies, procedures, and controls adequate to
    reasonably ensure that assistance is not provided to or through terrorists worldwide?

Appendix I contains a discussion of the audit’s scope and methodology.




2
  In 1995, the U.S. President designated Hamas as a terrorist organization, according to
Executive Order 12947.
3
 On March 5, 2007, the Washington Times published a news article, entitled “School linked to
Hamas gets U.S. cash.”
4
  The USAID Regional Inspector General in Cairo, Egypt is conducting a separate audit regarding
the allegations identified in the Washington Times news article.


                                                                                             4
AUDIT FINDINGS
Although it conducts programs in countries where terrorism is a major concern, 5 USAID
has not developed or instituted a worldwide antiterrorism program that reasonably
ensures that the Agency does not provide material support to terrorists. In fact, except
as noted in the following paragraph, USAID has no policies or procedures that address or
require vetting potential or current USAID partners worldwide, especially in areas with
high risks of terrorist activity; and it has not developed sufficient controls to reasonably
ensure that aid is not inadvertently provided to terrorists. Currently, no statutes,
regulations, or Executive orders (E.O.s) explicitly require Federal agencies to establish
antiterrorism programs that would include vetting or screening identifying information
about individuals. 6 However, the intent of the applicable legal authorities is to prohibit
providing material support to terrorists. In the past, USAID has provided funding to
some grantees that have had terrorist affiliations, as identified in this report. Once the
terrorist affiliations were identified, however, USAID took appropriate corrective action by
cutting off funding.

Although some individual missions conduct antiterrorism vetting on an ad hoc basis,
USAID uses a more comprehensive and systematic approach for vetting potential
partners and recipients of assistance for the West Bank and Gaza program activities
because of statutory requirements that apply only to these activities. 7              These
comprehensive measures for West Bank and Gaza include policies, procedures, and
controls to vet individuals or entities and reduce or eliminate possibilities that terrorists
could obtain USG funds.

Even though USAID does not have a worldwide antiterrorism program, some offices
have exercised due diligence and developed guidance and procedures. Efforts to
develop a program that would include a vetting policy have been hindered by the
absence of a Government-wide vetting policy, as well as the reluctance of some USAID
officials to establish a policy in the absence of specific legislation. Nevertheless,
USAID/West Bank and Gaza, and USAID/Washington’s Offices of Security (SEC) and
Acquisition and Assistance (OAA) have developed some guidance that includes
components of a worldwide antiterrorism vetting program.



5
 Appendix V shows the seven countries where terrorism represents a major threat to USAID
activities.
6
  Homeland Security Presidential Directive (HSPD) No. 6 directs and authorizes executive
departments and agencies to examine their programs to determine where vetting should be
applied. In addition, HSPD-6 states that U.S. policy is to develop, integrate, and maintain
accurate and current information about individuals known or suspected to be or have been
engaged in conduct constituting, in preparation for, in aid of, or related to terrorism.
7
   The scope of the antiterrorism vetting process does not include a separate review of a
recipient’s funding from non-USAID sources. Consequently, the vetting process does not include,
within its scope, a review for creditworthiness, bankruptcy history, links or convictions related to
financial or violent crimes, or trafficking in persons.



                                                                                                  5
In 2002 and 2003, USAID/West Bank and Gaza published guidance in a mission order
regarding E.O. 13224 for the prohibition of terrorist financing by the Mission, as well as
guidance on vetting 8 and certification. 9 The guidance, updated in January 2007, defined
who would be vetted and what information would be collected. It further established
procedures by which the Mission, its partners and U.S. Embassy Tel Aviv staff would
work together to ensure that USG assistance would not support terrorist activities.

In January 2007, SEC assumed the responsibility for vetting all non-U.S.-based West
Bank and Gaza partners. SEC has taken the lead to expand an electronic database
system that will be able to accommodate missions worldwide using a risk-based
approach and other assessment factors. Before that time, U.S. Embassy Tel Aviv
assisted the Mission in its efforts.

In conjunction with the ad hoc vetting process at USAID, OAA developed three
administrative antiterrorism measures. These measures in the Automated Directives
System include two requirements and a mandatory clause that is included in each
agreement:

      •   USAID personnel are obligated to check the U.S. Department of
          Treasury’s Office of Foreign Assets Control list for designated
          terrorists. 10

      •   Grantees are required to sign a certification attesting that they have
          not provided any material support to terrorists in the past 10 years. 11

      •   Contractors and partners are reminded of their legal duty to comply
          with applicable antiterrorism laws by the mandatory clause in each
          award. 12

The following seven sections address USAID’s accomplishments and challenges in
establishing an antiterrorism program. The first section discusses USAID’s development
of a pilot vetting program, as well as the basic cause for USAID’s delay in developing an
Agency-wide program that would include vetting. The second and third sections discuss
USAID’s need to approve guidance for a worldwide antiterrorism vetting program, as
well as the need, in the interim, for USAID to unify interim procedures that will define

8
  Section 559 of the Foreign Operations, Export Financing, and Related Programs Appropriations
Act, 2006 requires vetting prior to the obligation of Economic Support Funds for assistance for the
West Bank and Gaza. It also prohibits the provision of any funds appropriated under the Act for
the purposes of recognizing or otherwise honoring individuals who commit or have committed
acts of terrorism.
9
  A potential USAID grantee certifies, in writing, that it has not provided any material support to
terrorists.
10
  Refer to Acquisition and Assistance Policy Directive (AAPD) 02-04, Automated Directives
System (ADS) 302, and Procurement Executive Bulletin (PEB) 2005-12.
11
     See ADS 303 and AAPD 04-14.
12
     As noted in PEB 2005-12.



                                                                                                 6
office roles and responsibilities. The fourth section highlights some of the Agency’s
successes in establishing a vetting database with regard to the need to expand the
database for worldwide use. The fifth and sixth sections address the challenges that
USAID has faced and overcome regarding the need to vet both U.S. and non-U.S.-
based partners, and to publicize USAID’s intent to maintain vetting information. The final
section addresses the challenges that the Agency has faced in accurately documenting
its worldwide activities.     While many challenges remain, SEC anticipates the
development of policies and procedures that can be systematically implemented
worldwide within the next few years.


USAID Participates in Interagency Working Group
to Develop an Agency Counterterrorism Plan
In October 1999, the National Security Council directed the Department of State to
establish an interagency working group on nongovernmental organizations and terrorist
financing. The group, which included USAID, was to make recommendations to be
applicable worldwide. Although the group circulated a draft report for review, a final
report was never published because of staff departures and turnover, according to a
security official who was a member of the group.

In the absence of any Government-wide vetting program, in October 2000, USAID
piloted an informal vetting process for all private voluntary organizations (PVOs)
registered or applying for registration with USAID. 13 Later, in September 2001, the
USAID Administrator directed SEC and General Counsel staff to develop a
counterterrorism plan that would be consistent with recommendations contained in the
interagency working group draft report. One of the recommendations considered was a
requirement that nongovernmental entities applying to the USG for grants and contracts
be vetted by the intelligence community.

In an internal memorandum to the Administrator in May 2003, the Assistant
Administrator for Democracy, Conflict and Humanitarian Assistance (DCHA) requested
the suspension of the pilot vetting program because of insufficient intelligence
community resources to conduct screening. At that time, at least 28 applicants for PVO
registration had not been vetted and, therefore, could not respond to solicitations for
grants and cooperative agreements. As the DCHA official explained, a review revealed
that no Government-wide mandate required vetting at USAID. Therefore, USAID
suspended its pilot vetting procedures in July 2003 until a Government-wide vetting
program could be approved.

In January 2004, another interagency working group began to develop policies and
procedures for a Government-wide vetting program to address terrorist financing. In
early 2005, the group agreed upon a memorandum of understanding to implement
vetting and other terrorist financing procedures on a pilot basis. However, according to
one SEC official, negotiations broke down when one department decided that it could
not implement some of the recommendations in the model memorandum of

13
  A PVO is a U.S.-based, private, voluntary organization engaged in international humanitarian
and development assistance.



                                                                                            7
understanding.   Consequently, no Government-wide vetting program has been
implemented to date, and USAID has not published its own guidance.


USAID Should Approve Guidance for a
Worldwide Antiterrorism Vetting Program

     Automated Directives System (ADS) 501.3.1, Policy Directives and Required
     Procedures, About the ADS, states that all USAID internally created policy directives
     and required procedures must be codified in the ADS. Although USAID officials
     drafted policy guidance to be included in the ADS, USAID has not approved any
     guidance for publication. This occurred, in part, because the Office of Security
     wants to conduct tests at selected field missions of the draft worldwide policy and
     some of its procedures to ensure that the system will work before issuing guidance.
     As a result, USAID employees may not be aware of or understand their
     responsibilities regarding antiterrorism vetting, and USAID risks providing funding or
     other material support and resources to terrorists or terrorist organizations.

ADS 501.3.1, Policy Directives and Required Procedures, About the ADS, states that all
USAID internally created policy directives and required procedures must be codified in
the ADS. Moreover, ADS 501.1, entitled The Automated Directives System - Overview
stipulates that the heads of Federal agencies shall “make and preserve records
containing adequate and proper documentation” of the agency’s policies and
procedures, among other things. According to the guidance, such policies and
procedures are “necessary to protect the legal and financial rights of the Government
and of the persons directly affected by the Agency’s activities,” as required by law.

In March 2005, SEC began drafting ADS 570, entitled Counterterrorism Vetting
Program, which has not yet been approved or published. In May 2007, a SEC official
provided the draft policy to General Counsel staff for review. The draft ADS stipulates
that SEC will be the responsible office for processing vetting requests from any USAID
office or field mission. In addition, the draft policy requires vetting for all potential non-
U.S. nongovernmental recipients of USAID grants and cooperative agreements. U.S.-
based contractors will be exempt from this requirement until additional legal and
administrative requirements that apply specifically to contractors can be resolved, as
discussed in more detail on pages 15 – 16 of this report.

In at least two instances, USAID provided funding to grantees who had ties to terrorists.
According to one security official, these instances could have been avoided if USAID
had comprehensive vetting policies and procedures. The two examples are detailed
below:

      •   In January 2006, the American Embassy in Bosnia notified SEC that
          the president of one of its subgrantees had been on a “watch list” 14

14
  The watch list is a consolidated list of names managed by the FBI’s Terrorist Screening Center
containing the names of known or suspected terrorists, both international and domestic. Various
agencies, whose missions require screening for links to terrorism, use watch list records. For
example, U.S. Customs and Border Protection use it to screen travelers at ports of entry.


                                                                                              8
       since May 1997 that prohibited his entry into the United States.
       USAID did not have significant information about the subgrantee
       officer when it provided a grant to a U.S. partner of the subgrantee.
       At the time of discovery, USAID had expended $61,000 of $180,000
       planned for the project, which was scheduled to end in December
       2006. After consultation with State Department officials, USAID
       terminated the funding to the subgrantee.

   •   In February 2005, a USAID partner pled guilty to lying to law
       enforcement officials about his involvement with and support to one
       of the disciples of Osama bin Laden in a terrorism-related
       investigation. In August 2005, a U.S. District Court in Louisiana
       sentenced the former USAID partner to 48 months’ imprisonment
       and a fine for making false statements to Federal agents in
       connection with counterterrorism investigations.        Before the
       indictment, USAID officials had provided the partner with
       approximately $108,000 (of an estimated $1 million) from July 2004
       to January 2005 for a program funded out of USAID/Pakistan.
       Initially, the U.S. Embassy in Pakistan notified USAID about the
       partner’s arrest in October 2004 pursuant to the indictment. Of the
       $108,000, USAID paid the partner $25,000 as a termination
       settlement for the grant that was awarded in July 2004.

Even though executive and legislative decisions, such as those illustrated in appendix III,
establish that the USG has both legal and financial interests in ensuring that public funds
do not support terrorist activities, USAID had several reasons for not publishing
guidance for worldwide comprehensive antiterrorism measures that would include a
vetting program. First, USAID officials relied on an interagency working group, which did
not produce a final report to develop Government-wide vetting policies and procedures.
Second, USAID managers have differing opinions about the applicability of vetting for
some potential recipients and concerns about its effects on the timely provision of
services. Third, requirements mandated by the Privacy Act of 1974 have hampered
USAID attempts to screen U.S. individuals and organizations. Furthermore, a SEC
official stated that USAID’s efforts to publish Agency-wide guidance on vetting have
been partly hampered by the problems of implementing the guidance. To fully
implement any formal guidance for a worldwide vetting program, USAID would need to
expand an electronic vetting database, test the new processes and procedures at
selected field missions, and communicate the new requirements to grantees in a timely
and efficient manner.

Without ADS guidance for vetting, USAID employees may not be aware of or understand
their responsibilities regarding antiterrorism vetting. As a result, USAID risks providing
funding or other material support and resources to terrorists or terrorist organizations.
Although no executive branch action or statute requires USAID to conduct vetting on a
worldwide basis, the Agency could benefit from doing so. USAID is obligated to ensure
that it does not provide material support to terrorists, and, therefore, we are making the
following recommendation:




                                                                                         9
   Recommendation No. 1: We recommend that USAID’s Office of Security
   coordinate with other USAID offices to finalize the draft antiterrorism guidance
   and establish milestones for publication.

Additionally, to ensure that the final published SEC policy requirements are incorporated
into other official guidance and implemented in a timely and efficient manner, OAA will
need to include the appropriate references to the finalized antiterrorism guidance into its
guidance and documents to ensure that NGOs are appropriately informed.

   Recommendation No. 2: We recommend that USAID’s Office of Acquisition and
   Assistance incorporate the references to the finalized antiterrorism guidance as a
   mandatory reference in its acquisition and assistance guidance, as appropriate.


USAID Offices Should Unify Interim
Office Antiterrorism Procedures

  Automated Directives System 596.3.1*c, Establishing Management Controls,
  requires USAID managers to promptly record transactions and events to maintain
  the relevancy and value to management in controlling operations and making
  decisions. Although several USAID offices, bureaus, and missions have their own
  policies and procedures, USAID has not unified them to facilitate staff knowledge
  about roles and responsibilities for antiterrorism measures. Until USAID finalizes
  Agency-wide guidance, no unified procedures exist because of differing opinions by
  USAID managers about the applicability of vetting and its effects on the timely
  provision of services. As a result, in the short term, the roles and responsibilities of
  various USAID offices are not clearly defined, and policies and procedures are not
  readily accessible for consultation and review.

Automated Directives System ADS 596.3.1*c, Establishing Management Controls,
requires USAID managers to promptly record transactions and events to maintain the
relevancy and value to management in controlling operations and making decisions. As a
control objective, the activities associated with promptly recording transactions and
events help to ensure that USAID will be effective and efficient in controlling operations
and making decisions.

USAID has not developed any interim procedures that coordinate the processes it
currently uses. The lack of final Agency-wide procedures can present a problem if SEC
recommendations are not followed. If SEC recommends that a grantee not be allowed to
conduct USAID programs based on derogatory information, another USAID office might
make a decision to disregard SEC’s recommendation. Consequently, USAID might
award an agreement in spite of SEC’s recommendation, which is not documented for
management review and the historical record, making it difficult for USAID management
to review decisions in the future. OAA has published guidance on antiterrorism
measures for potential partners who wish to conduct business on behalf of USAID.
However, various USAID/Washington offices have responsibilities in coordinating efforts
to implement USAID’s current policies and procedures. (See appendix VI.)




                                                                                        10
Although numerous offices have guidance regarding antiterrorism measures specific to
their operations, no consolidated interim Agency-wide procedures exist, in advance of
finalized ADS guidance, for three reasons, as follows:

   •   USAID managers have differing opinions about the applicability of
       vetting and its effects on the timely provision of services.

   •   Some USAID officials are reluctant to support a vetting policy in the
       absence of specific Government legislation.

   •   Staff can disregard SEC's recommendations not to fund a partner.

Although offices may disregard SEC recommendations, the rationale for these decisions
is not documented for further management review. In one instance, two USAID offices
took the lead to provide public information about vetting that was not cleared through
SEC before it was provided in a briefing to the general public. These offices cleared
information regarding a university’s involvement with the terrorist group, Hamas, that
was not correct. Consequently, in March 2007, USAID reported that a university was not
affiliated with the Hamas organization, when in fact, it was. Although SEC is responsible
for counterterrorism vetting procedures, SEC officials were not consulted before this
information was provided to the public.

Without coordinated and unified antiterrorism measures, USAID is not assured that its
measures are both consistent and transparent. Unified guidance will help ensure that
measures are not arbitrary or capricious. In addition, unified guidance will help
recipients, USAID staff, and other Federal departments to become more knowledgeable
about USAID’s current antiterrorism measures before any new regulatory or
administrative requirements are mandated.

The ADS process can be lengthy and take as much as a year or more to finalize draft
guidance. Given the sensitivity, complexities, and visibility of the vetting issues, we
believe that USAID could benefit from interim internal procedures until formal guidance
has been finalized. Therefore, we are making the following recommendations:

   Recommendation No. 3: We recommend that USAID’s Office of Security
   develop internal procedures for award decisions, along with an appeal and
   elevation process to be used when offices disagree about the relevance of
   vetting results that include derogatory information.

   Recommendation No. 4: We recommend that USAID’s Office of Security
   develop a briefing document that summarizes current USAID offices antiterrorism
   roles and responsibilities and disseminate the document for Agency use.




                                                                                      11
USAID Should Develop a Database
for Worldwide Antiterrorism Vetting

  The Homeland Security Presidential Directive (HSPD)-6, in part, states that the U.S.
  Government policy is to maintain accurate information about individuals known or
  suspected to be engaged in conduct or related to terrorism. Although USAID uses
  an electronic database to support vetting efforts at one of its missions, the Agency
  has not expanded the database for use by missions worldwide. The database was
  initially created for use at one mission, and was not designed for rapid expansion for
  multiple missions. Without a database that is capable of expanding worldwide, the
  effectiveness and efficiency of USAID antiterrorism vetting activities may be
  inadequate.

The Homeland Security Presidential Directive (HSPD)-6 directs and authorizes
executive departments and agencies to examine their programs to determine where
vetting should be applied. In part, the HSPD states that the U.S. Government policy is to
develop, integrate, and maintain thorough, accurate, and current information about
individuals known or appropriately suspected to be or have been engaged in conduct
constituting, in preparation for, in aid of, or related to terrorism.

In 2006, USAID/West Bank and Gaza developed an electronic database to assist USAID
and U.S. Embassy Tel Aviv staff to process vetting requests for its partners. Mission
staff entered data into the database and forwarded the information to U.S. Embassy
officials for review, as illustrated in appendix VII. SEC assumed responsibilities for
managing the electronic database in January 2007 with plans to expand its use to other
missions. However, USAID has not yet expanded the database for other missions or
bureaus although SEC has analyzed future database requirements and cost estimates
for the requirements. SEC has taken the lead to expand the electronic database system
that it believes will be able to accommodate multiple missions worldwide using a risk-
based approach and other assessment factors.

However, SEC has not been able to expand its use of this database because the
database was not designed for rapid expansion for multiple missions. Moreover, until
recently USAID/Washington officials had not budgeted funds for any upgrades to the
database system or finalized plans for any incremental expansion of the system to other
missions. For FY 2008, the Acting Administrator approved $800,000 to upgrade the
vetting database system. Furthermore, about $200,000 is needed annually for system
upgrades. In addition, funding for hardware and training will be needed to deploy the
system worldwide. Planned upgrades would include the following:

    •   The expansion of the system to house data from multiple missions
        incrementally, especially where USAID conducts programs in areas with
        high risk of terrorist activity.

    •   A secure connection to allow nongovernmental organizations to provide
        vetting data electronically.

    •   An automated transmission of vetting data.



                                                                                      12
According to SEC, after the database system expansions become operational and fully
tested, USAID could feasibly develop a multimission database system by the end of
2008.

The upgrade and deployment worldwide will not necessarily be a simple process.
Business processes will need to be evaluated and possibly changed to accommodate
multiple missions and their specific needs, which would include travel costs. Without a
commitment from USAID management to approve funding based on cost estimates and
analyses, the implementation of the database worldwide will be hindered, which will
affect the effectiveness and efficiency of the vetting process. Therefore, we are making
the following recommendation:

   Recommendation No. 5: We recommend that USAID’s Office of Security
   develop a plan to expand and then implement its antiterrorism vetting database
   for worldwide use.


USAID Vetting Program Should Include
U.S. and Non-U.S.-based Partners

  The foreign operations appropriations laws for fiscal years 2003 through 2006
  imposed requirements tailored to the West Bank and Gaza to ensure that assistance
  was not provided for terrorist activities. Although the statutory language did not
  distinguish between U.S. and non-U.S.-based individuals or entities, USAID has
  vetted only non-U.S.-based nongovernmental individuals and organizations because
  the Agency has not been able to conduct vetting on U.S. individuals or organizations
  until certain requirements mandated by the Privacy Act of 1974 are followed.
  Consequently, USAID has not fully complied with requirements to vet some of its
  partners that conduct activities in the West Bank and Gaza.

Foreign operations appropriations laws for fiscal years 2003 through 2006 each
contained a section entitled ”vetting” for recipients of certain assistance for the West
Bank and Gaza.       A representative statutory provision, Section 566(b) of the
Consolidated Appropriations Act, 2004 (P.L. 108-199), states, in part, that:

     Prior to the obligation of funds appropriated by this Act under the heading
     “Economic Support Fund” for assistance for the West Bank and Gaza, the
     Secretary of State shall take all appropriate steps to ensure that such
     assistance is not provided to or through any individual or entity that the
     Secretary knows or has reason to believe advocates, plans, sponsors,
     engages in, or has engaged in, terrorist activity.

Most notably, the statutory language, which is nearly identical for all four fiscal years,
made no distinction between U.S. and non-U.S.-based individuals or entities.
Notwithstanding this lack of distinction, USAID has requested that vetting be conducted
for only non-U.S. individuals and organizations. A non-U.S. organization, for this
purpose, is one formed under the laws of a foreign government.




                                                                                       13
Vetting requests at USAID have been solely targeted at non-U.S. organizations because
specific mission guidance excludes vetting of U.S.-based partners. The guidance states
that vetting applies only to non-U.S. organizations and individuals, even though the
guidance also notes that the foreign operations appropriations laws since fiscal year
2003 are of “special relevance.” According to an Office of Security official, USAID
cannot conduct vetting on U.S. individuals or organizations, at the missions or at
headquarters, until certain requirements mandated by the Privacy Act of 1974 are
followed. (The issue is discussed in more detail in the next section.)

The failure to vet U.S.-based organizations invites opportunities for terrorist
organizations to exploit USAID foreign assistance programs. Significantly, according to
an indictment filed in a U.S. District Court, a charitable organization incorporated in
Texas transferred funds from its bank accounts in Texas to zakat 15 committees and
other organizations in the West Bank and Gaza controlled by Hamas. Hamas previously
had been designated as a foreign terrorist organization and subject to various sanctions
under a number of U.S. laws. OAA data during fiscal years 2002 to 2005 indicated that
USAID did not provide any funding directly to that organization. According to USAID’s
criteria, however, that organization would have evaded vetting review because it was a
U.S.-based organization.

In vetting only non-U.S.-based recipients, USAID has not fully complied with a crucial
element of U.S. counterterrorism policy, denying possible terrorist organizations the
funding to carry out their operations. As demonstrated in the case cited above, the
funding source can be U.S.-based. While scarce vetting resources must be used
judiciously, the vetting of U.S.-based organizations is a prudent management response.
Moreover, although the appropriations language requiring vetting applies exclusively to
the West Bank and Gaza recipients, it does not exempt USAID from ensuring that other
recipients are free from terrorist connections. Therefore, we are making the following
recommendation:

     Recommendation No. 6: We recommend that USAID’s Office of Security
     develop, implement, and communicate procedures to vet both U.S. and non-
     U.S.-based partners where appropriate.




15
   “Zakat,” which means “charity” or “alms giving,” is one of the pillars of Islam and is required for
all practicing Muslims.



                                                                                                   14
USAID Should Publicize its Intent to
Maintain Information on U.S. Citizens

     The Privacy Act of 1974, 5 U.S.C. § 552a(e)(4), requires Government agencies such
     as USAID to publish in the Federal Register a description of each system of records
     that it maintains. At the onset of the audit, USAID officials had not published a
     “System of Records Notice” about its intent to collect information about U.S.-based
     potential or current partners for vetting purposes. The reason given was that
     complex interagency negotiations had not proceeded in a timely manner. As a
     result, USAID will not be able to vet U.S.-based partners until it has completed the
     public review and responded to comments, at the earliest by the end of December
     2007.

A U.S. agency must establish rules covering a broad range of issues related to a system
of records, and it must establish appropriate administrative, technical, and physical
safeguards to ensure the security and confidentiality of records. The Privacy Act of
1974, 5 U.S.C. § 552a(e)(4), 16 requires USAID to publish in the Federal Register a
description of each system that it maintains. In addition, the Privacy Act prohibits, with
certain exceptions, the disclosure of any record that is contained in a system of records
to any person or to another agency except by written request to or consent from the
individual to whom the record pertains. In accordance with the guidance, USAID must
publish a Privacy Act “System of Records Notice” (SORN) in the Federal Register. 17
This system will collect information about employees or other officials of
nongovernmental organizations who apply for USAID funding or who apply for
registration with USAID as private voluntary organizations.

USAID published its SORN in the Federal Register on July 17, 2007, so the SORN is
currently in the public review process. Therefore, USAID complied with the provisions of
the Privacy Act before developing a worldwide electronic database system to maintain
information about U.S. individuals. The SORN publicizes USAID’s intention to store
information on U.S. citizens and legal aliens in a system of records for vetting purposes.
Interested persons have a 60-day period to submit written comments to USAID. At best,
SEC officials expect to respond to substantive comments by early fall 2007, after which
they can begin using the Department of Justice’s Terrorist Screening Center (TSC)
databases to vet U.S.-based partners and potential partners by the end of December
2007.

At the onset of the audit, USAID officials had not published the SORN because
extensive coordination and agreement among offices within USAID and with external
agencies such as the Office of Management and Budget and the intelligence community
had to occur to ensure that appropriate language was included in the notices. This
language not only had to satisfy the basic requirements of the Privacy Act, but also had

16
  The Privacy Act of 1974, as amended, defines a "system of records" as a group of any records
under the control of any agency from which information is retrieved by the name of the individual
or by some identifying number, symbol, or other identifying particular assigned to the individual.
17
  The notice is required to publicize USAID’s intent to use an electronic database system for
vetting purposes.



                                                                                               15
to ensure that appropriate exemptions were claimed to provide protections for the law
enforcement and intelligence information that would be the basis for security decisions.

USAID and TSC officials are finalizing an agreement to permit the TSC to assist USAID
in completing the large number of pending requests for the USAID Mission in Tel Aviv.
Until USAID complies with the Privacy Act of 1974 as amended, responds to any public
comments to the SORN, and signs a memorandum of understanding with the TSC, the
TSC has tentatively agreed to process non-U.S. citizens for vetting of West Bank and
Gaza programs. SEC has hired two intelligence analysts to conduct USAID’s screening
work at the TSC after an agreement is finalized.

Even after it completes the SORN process, USAID may face additional challenges
because of certain requirements of the Computer Matching and Privacy Protection Act
as it relates to screening U.S. citizen information. Although a formal conclusion about
exceptions to computer matching has not been reached between Department of Justice
and USAID officials, the Computer Matching Act limitations would apply to U.S. citizens
who are direct recipients of a grant or agreement and would exclude U.S.-based
organizations, since the Act applies to individuals. The use of the TSC database will
require USAID officials to review the actual intelligence information behind the listing in
the database before making a decision to grant funds, deny a grant application, or
terminate an active grant.

As indicated in appendix VIII, the use of the TSC database may be subject to the
requirements of the Computer Matching and Privacy Protection Act, which amended the
Privacy Act. USAID will not be able to vet its U.S.-based partners or use the TSC
database until it carries out measures required by the Privacy Act. This delay
compromises the Agency’s ability to obtain up-to-the-minute information about
individuals involved, suspected of being involved in terrorism, or those who have other
terrorist affiliations. Since USAID can benefit from readily-available verifiable information
such as that which is contained in the TSC database, the Agency should be able to
reduce some of the challenges that it may ordinarily encounter when conducting vetting
activities. 18

Because USAID has published the SORN and is awaiting comments, we are not making
a recommendation at this time.




18
  To illustrate one challenge in vetting, the U.S. Department of Treasury’s Office of Foreign
Assets Control list of Specially Designated Nationals and Blocked Persons includes six different
entries for Osama bin Laden. Each entry contains multiple variations on his name; one variant is
Usama bin Muhammad bin Awad bin Ladin.



                                                                                             16
USAID Should Improve Management
Controls Over Recording Transactions

     ADS 596.3.1, Establishing Management Controls, requires managers to design and
     implement effective management controls to help ensure that management
     directives are being carried out. For USAID to know where its activities are being
     implemented, OAA uses an electronic database to track award information, including
     the place of performance. However, the database was incomplete and inaccurate
     because some information about the awards was not entered into the system. As a
     result, USAID managers cannot be assured that they know the full universe of
     activities being implemented, especially in countries where vetting may be
     necessary.

ADS 596.3.1, Establishing Management Controls, requires managers to design and
implement effective management controls to help ensure that management directives
are being carried out. These controls also provide a basis for assessing the risks that
USAID faces from both internal and external sources. Control activities that help to
achieve these important goals include the accurate recording of transactions and
controls over information processing.

In order for USAID to know where its activities are being implemented, OAA uses an
electronic database to track various information about its awards, including where
activities will take place (place of performance). According to one OAA official, data
fields include data source, place of performance, and the like when contracting
personnel enter this information into the database. Although the database provides a
management tool for review and oversight, the OAA database 19 was incomplete and
inaccurate because some information on the awards was either not entered into the
system or it did not consider the activities that were being implemented in multiple
countries. OAA’s list of centrally funded 20 worldwide awards contained 8,062 records.
These records included information about the West Bank and Gaza awards. However,
as many as 1,669 “place of performance” fields were not complete. OAA listed nine
centrally funded Economic Support Fund awards for fiscal years 2003 to 2006 whose
place of performance was specified as the West Bank and Gaza. USAID’s Bureau for
Democracy, Conflict Humanitarian Assistance, Office of Conflict Management and
Mitigation (CMM) 21 managed these awards. About $4 million in assistance has been
obligated for eight of the nine awards to U.S.-based grantees for these programs to date.


19
  Auditors did not test the entire database. The review was limited to only those records within
the database for West Bank and Gaza assistance awards that were centrally funded out of
USAID/Washington.
20
  When an award is centrally funded out of Washington, the USAID/Washington office manages
the grant or cooperative agreement.
21
   CMM helps to identify sources of conflict and fragility as it integrates conflict mitigation and
management into USAID programs conducted worldwide. CMM supports reconciliation programs
and activities that attempt to unite individuals of different ethnic, religious, or political backgrounds
from areas of civil conflict and war.



                                                                                                      17
Although OAA’s database listed the nine awards with a “place of performance” as the
West Bank and Gaza, CMM records show that some of the program activities were
activities that occurred in various locations across the Middle East. One of the nine
awards was authorized by the President. 22 According to CMM staff, of the eight
remaining awards, three awards had activities in the West Bank and Gaza, three had
activities in Israel that included Palestinian participants or trips outside of Israel. For
example:

     •   Program activities included funding the operation of a radio station
         located in Israel. Station staff included Israelis and Palestinians who lived
         in Israel. However, USAID suspended the grant because of possible
         program contact with restricted categories of organizations and
         individuals. In June 2006, the grant was recommended for early
         termination. CMM provided a subgrant for activities to be conducted in
         the West Bank and Gaza.

     •   USAID funds supported training events in mediation and negotiations that
         occurred in Jerusalem and Haifa, Israel. Participants and staff included
         Israelis and Palestinians. USAID officials were not able to determine
         whether the Palestinian participants came from Gaza or the West Bank.
         Training events also included activities for youth to carry out community
         service projects and outreach within Israel, as well as in the West Bank
         and Gaza (including within refugee camps). According to CMM officials,
         the grantee’s semiannual report from March 6, 2006, seemed to indicate
         that the USAID award also supported one of two national seminars held
         in Ramallah, the West Bank. However, because this program was funded
         by multiple donors, CMM officials concluded that it was not certain
         whether USAID funded the Ramallah seminars.

     •   Another USAID-funded program provided training for Israeli and
         Palestinian civil society actors to increase capacity and increase
         cooperation in Israel. CMM officials believe the program likely included
         Palestinian participants from the West Bank.

     •   Two grants involved activities in Israel to reduce pollution levels in waters
         in Palestinian areas. Although field trips were made to Jordan, CMM
         officials did not believe that any activities took place in the West Bank and
         Gaza.

     •   One USAID program provided reconciliation activities between Israeli
         Jews and Israeli Arabs (Palestinians with Israeli citizenship) in Israel.

According to an OAA official, the system did not require entering any information into a
field labeled “place of performance,” which led to the omission of some of the data. As a
result, the West Bank and Gaza assistance award list is incomplete and inaccurate. As
illustrated in the examples above, since many of the projects may be conducted in more


22
  A cash transfer to the Palestinian authority in 2003 was personally approved by the U.S.
President.



                                                                                         18
than one country, it may be difficult to determine from the OAA database not only the
number and value of grants awarded USAID-wide, but also the number of beneficiaries.

As a result of incomplete data, USAID managers cannot be assured that they know the
full universe of activities being implemented, especially in countries where vetting may
be necessary. Furthermore, USAID cannot make sound management decisions for the
West Bank and Gaza, an area of key concern to U.S. national interests and one with
unique vetting legal requirements, nor can the Agency accurately assess its security
workload since the database excludes some centrally funded awards that require vetting.
Therefore, we are making the following recommendations:

   Recommendation No. 7: We recommend that USAID’s Office of Acquisition and
   Assistance develop procedures to ensure that database information regarding its
   awards is complete and accurate, and sent to responsible offices.

Additionally, given OAA’s database weaknesses in identifying multicountry awards, we are
making a recommendation to SEC so that its finalized guidance addresses multicountry
programs.

   Recommendation No. 8: We recommend that USAID’s Office of Security review
   its proposed Agency-wide guidance to ensure that it addresses antiterrorism
   measures for USAID partners conducting multicountry programs.




                                                                                     19
EVALUATION OF
MANAGEMENT COMMENTS
In their responses to the draft report, SEC and OAA officials concurred with all of the
recommendations. Each of the offices responses to each of the eight recommendations
is evaluated below:

To address Recommendation No. 1, SEC officials have coordinated with other USAID
offices in the first of several planned meetings to discuss policy changes and proposed
revisions for specific OAA directives and review draft guidance. We believe that these
and other planned actions will guide antiterrorism vetting policy decisions that will
facilitate the publication of USAID guidance during the first quarter of calendar year
2008. Accordingly, a management decision has been reached on this recommendation.

Regarding Recommendation No. 2, OAA plans to revise its guidance in accordance with
the new ADS Chapter 570. Accordingly, a management decision has been reached on
this recommendation.

To address Recommendation No. 3, SEC officials plan to track and document vetting
results. In consultation with other USAID offices, a process will be developed that will be
included in the finalized ADS guidance. Accordingly, a management decision has been
reached on this recommendation.

To address Recommendation No. 4, SEC officials anticipate that an appropriate briefing
document could be published after USAID provides guidance on the Agency’s planned
approach to the vetting issue. Accordingly, a management decision has been reached
on this recommendation.

We revised Recommendation No. 5 to be more precise. We discussed the revised
recommendation with SEC on November 2, 2007, who agreed with the revised
recommendation. Based on SEC’s agreement with the revised recommendation, a
management decision can be reached when SEC develops a plan to expand its
antiterrorism vetting database for worldwide use. The recommendation can be closed
once this plan is implemented.

To address Recommendation No. 6, SEC and other officials worked together to publish
the required notices of USAID’s intent to collect information from and screening of U.S.
persons and organizations before the audit concluded. SEC plans to ensure that
persons and organizations are included in USAID’s finalized vetting directives and
guidance.     Accordingly, a management decision has been reached on this
recommendation.

To address Recommendation No. 7, OAA officials plan to deploy a new database
system during fiscal year 2008 that will include procedures about mandatory information
that should be entered into the system. The mandatory information, which will include
the locations of USAID programs conducted, will help to strengthen management




                                                                                        20
controls to ensure that data are complete and accurate. Accordingly, a management
decision has been reached on this recommendation.

Regarding Recommendation No. 8, SEC officials plan to coordinate with other USAID
offices to develop procedures to address vetting that affect multicountry programs, as a
part of the Agency’s vetting policy determination. Consequently, based on the outcome
of the policy determination expected by the end of the first quarter of calendar year
2008, SEC plans to address the issue further in published guidance. Accordingly, a
management decision has been reached on this recommendation.




                                                                                     21
(This page intentionally left blank)




                                       22
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted government auditing standards. The purpose of this audit was to determine
whether USAID’s antiterrorism vetting policies, procedures, and controls are adequate to
reasonably ensure that assistance is not provided to or through terrorists worldwide. We
conducted this audit at four USAID/Washington offices: the Office of Acquisition and
Assistance, the Office of Security, the Office of Legislative and Public Affairs, and the
Office of General Counsel. We also interviewed officials from other Federal agencies in
the Washington, DC, area: the Department of Treasury, Department of Justice, the
Federal Bureau of Investigation, the Central Intelligence Agency, and the Department of
State. The fieldwork was performed between April 17 and July 25, 2007, with updates
through August 30, 2007.

USAID provided about $20 billion in assistance through grants and cooperative
agreements from fiscal years 2002 to 2006. The examples of occurrences in which
USAID provided funding to grantees that had ties to terrorists are illustrative only. As
such, these examples are not necessarily representative of the total universe of
occurrences in which funding was provided to grantees that had an association with
terrorists. This audit covered policies, procedures, and controls from fiscal years 2002 to
2006.     We obtained an understanding of the management controls related to
documentation, recording of transactions, and management review at the functional level
to determine the roles and responsibilities of the major USAID offices that conduct
antiterrorism measures. Because this audit focused on antiterrorism vetting policies,
procedures, and controls, we did not conduct field visits to test transactions.

Methodology

We reviewed various statutes, regulations, and Executive orders. In particular, we focused
on the following: (a) Executive Order 13224, which blocks property and prohibits
transactions with persons who commit, threaten to commit, or support terrorism, (b)
Homeland Security Presidential Directive-6, which mandates the heads of executive
departments and agencies to conduct screening on individuals known or suspected to be
engaged in terrorism, and (c) USAID’s Office of Acquisition and Assistance’s use of policy
directives and Automated Directives System to implement the Executive Order within the
Agency. We did not review the draft ADS guidance that the Office of Security has
developed to address policies, procedures, and controls that include antiterrorism vetting
since the draft is currently being reviewed by General Counsel.

In addition, we interviewed officials from the USAID/Washington Offices of Security,
Acquisition and Assistance, Legislative and Public Affairs, and General Counsel to (a)
gain an understanding of the Agency’s antiterrorism measures including vetting and
other USAID procedures and controls, and (b) obtain an understanding of management
controls related to the development of processes. We also reviewed National Security
Council documentation about vetting issues, as well as numerous documents and files
related to USAID/Washington’s evaluation of these measures.


                                                                                        23
                                                                             APPENDIX I



We also reviewed documentation regarding some grantees that had terrorist affiliations
to determine the extent to which the Agency took appropriate corrective action for the
examples discussed in this report. However, we did not audit the grantee financial
records to determine the propriety of costs.

We performed random sampling on a universe of 7,194 worldwide grants and
cooperative agreements, of which 2,072 were identified as grants. To obtain a 90
percent confidence level, at less than 5 percent error and 4 percent precision, the
sample needed to include a review of 52 assistance awards for mandatory certifications.
Of the sample of 52 awards, we reviewed 43 of the 52 sample awards because 9
awards were not available for review. To substitute, we reviewed nine awards that had
been identified as conducted in the West Bank and Gaza but funded out of
USAID/Washington.

For the activities conducted in the West Bank and Gaza that were funded out of
Washington, we reviewed files for a universe of nine grants awarded during fiscal years
2003, 2004, and 2005. According to the OAA database, these grants represented about
$25 million or 31 percent of the total West Bank and Gaza funding of about $81 million for
procurement actions. During the review, we noted the type of program activities
conducted, the participants and beneficiaries involved, and the specific location where the
activities were conducted.




                                                                                        24
                                                                                  APPENDIX II



MANAGEMENT COMMENTS


                                                                                   October 17, 2007
MEMORANDUM

TO:            Director, Performance Audits Division, Steven H. Bernstein

FROM:          Director, Office of Security, Harry Manchester

SUBJECT:       Audit of the Adequacy of USAID’s Anti-terrorism Vetting Procedures
               (Report No. 9-000-08-001-P)

Background:

The Office of Security (SEC) wishes to thank the Inspector General (IG) Performance Audits
Division for their interest in the Non-Governmental Organization (NGO) Vetting initiative and
the professionalism of its staff during the conduct of the audit. This audit is the first examination
of the vetting initiative since its inception approximately seven years ago. A thorough
examination of the activities, plans, policies and efforts surrounding the endeavor will help to
improve USAID’s posture as it attempts to mitigate the vulnerabilities of USAID’s partners from
the threat of terrorist elements.

SEC Response:

In general, the audit recommendations are reasonable, having been formulated with an insight
toward improving the planning, documentation and oversight of the contemplated NGO vetting
program. SEC would like to note that it has been diligently pursuing a systemic solution to the
NGO vetting issue for approximately seven years, in conjunction with representatives from the
Office of the General Counsel (GC) and with input from members of regional and pillar bureaus.
SEC has been at the forefront of developing and improving the vetting mechanisms for the
USAID West Bank/Gaza (WBG) Mission in response to previous audit findings by the
Government Accountability Office (GAO) and the USAID IG. SEC appreciates the IG’s
recognition of its on-going efforts in this area as evidenced by the documentation of the
complexity of this challenging issue and the progress achieved to date.

OAA Response:

We would like to thank USAID’s Office of the Inspector General (OIG) for the opportunity to
review and comment on the draft IG report entitled Audit of the Adequacy of USAID’s Anti-
Terrorism Vetting Procedures. The Office of Acquisition and Assistance (OAA) shares the same


                                                                                                  25
                                                                                  APPENDIX II


concerns as the OIG in not wanting USAID funding to get into the hands of terrorist
organizations. We support the U.S. Government’s objective of denying terrorists and terrorist
organizations access to funding and other forms of material support and resources and would like
to emphasize what we have done to support this objective.

The first page of the report is somewhat misleading in that it states that “USAID does not have
worldwide policies or procedures that address or require vetting potential or current USAID
partners, and has not developed sufficient controls to reasonably prevent aid from being
inadvertently provided to terrorists.” As a matter of fact, USAID has the most comprehensive
and systematic anti-terrorist financing program of all grant making agencies in the Executive
Branch. We believe that the draft report should be more explicit in presenting the policies and
procedures that USAID already has in place, and also should provide additional context with
respect to the vetting procedures currently utilized for the West Bank and Gaza.

USAID’s program includes Acquisition and Assistance Procurement Directives (AAPD’s),
guidance in the Agency Automated Directives System (ADS), and Procurement Executive
Bulletin references to mandatory clauses for all solicitations, contracts and assistance
instruments. USAID also requires mandatory certifications prior to award of assistance funds to
any U.S. or foreign NGO, and mandatory checking of the Office of Foreign Assets Control
(OFAC) list and other appropriate lists to minimize the risk that USAID funds will be diverted to
terrorists or used for terrorist purposes. The USAID Mission for West Bank and Gaza has been
conducting vetting, as envisioned by this OIG report, since 2003 in compliance with statutory
requirements, and this vetting program has been improved constantly over the years. Despite the
absence of a clear consensus within the U.S. Government on the extension of vetting procedures
used in the West Bank and Gaza to other countries and regions, USAID staff have proceeded to
develop the Partner Vetting System (PVS) which, if approved by the Administrator, would
provide missions worldwide with the authority (but not an unconditional mandate) to conduct
vetting as appropriate.

While the applicable sub-section in our appropriations legislation is entitled “Vetting,” the text of
that sub-section does not expressly refer to vetting or prescribe what measures USAID should
take in carrying out this mandate. Rather, it requires the Secretary of State to “take all
appropriate steps” to ensure that ESF is not provided to individuals or entities associated with
terrorism. It is thus left up to the Executive Branch to determine what procedures should be
followed and vetting is merely one of a series of measures that are available to the Mission.
When formulating terrorist financing procedures, each decision to vet or not carries an associated
risk and an associated cost. The risk of course is that funds might go to a terrorist while the cost
is additional administrative burden and delay in program implementation, which cumulatively
must be considered given the limited resources. USAID needs to decide, on a situational basis,
whether to vet, especially where the risk is greatest, and when to rely on other anti-terrorist
financing measures to meet the desired result.

We would note our concern that the implementation of the policies, systems and procedures
recommended by the draft audit report will increase the workload of USAID contracts and
agreements officers and others involved in planning, awarding and managing acquisition and
assistance awards, and may cause serious delays in awarding grants and contracts. The



                                                                                                  26
                                                                               APPENDIX II


additional staffing and overall resource requirements for developing and implementing the PVS
and related policies and procedures should be determined in connection with a decision to
proceed.

The following are SEC and OAA responses to the Audit Recommendations:

Audit Recommendation No. 1:

We recommend that the Office of Security coordinate with other USAID offices to update the
draft anti-terrorism guidance and establish milestones for publication.

SEC Response:

SEC, OAA and GC have held the first of what will be several meetings to discuss the policy
changes required to permit proper implementation of the vetting program. This combined effort
will include completion and review of a specific vetting Automated Directive System (ADS)
Chapter 570 and revisions of certain Acquisition and Assistance Policy Directives (AAPD).
Paramount to completing vetting policy and guidance is a final policy determination by the
USAID Administrator (A/AID) that will outline the breadth and depth of the vetting program.
As contemplated, a pilot program, utilizing the experience of the WBG Mission, will test the
procedures, infrastructure and personnel resources to help inform the decision process. Resultant
decisions will guide the specific policies and procedures that will appear in ADS Chapter 570
and the applicable AAPDs. It is expected that the underlying policy decisions would be made by
the end of calendar year 2007 which will facilitate the clearance and publication of the ADS
Chapter by April 2008.

Audit Recommendation No. 2:

We recommend that the Office of Acquisition and Assistance incorporate the anti-terrorism
guidance as a mandatory reference in its acquisition and assistance instruments, as
appropriate.

OAA Response:

OAA will revise its guidance in accordance with the new ADS Chapter 570

Audit Recommendation No. 3:

We recommend that the Office of Security develop internal procedures for award decisions,
along with an appeal and elevation process to be used when offices disagree about the
relevance of vetting results that include derogatory information.

SEC Response:

All internal procedures and processes for the decision and approval of awards and assistance are
currently being developed in conjunction with the planned West Bank/Gaza Partner Vetting



                                                                                              27
                                                                                 APPENDIX II


System (PVS) pilot program. The current guidance provides that SEC, after review of applicable
intelligence information, will provide a written recommendation to the initiator of a vetting
request. Essentially, the recommendation will indicate SEC’s position to either award or deny an
award. This recommendation can be automated through the PVS which would be used to track
the vetting results and generate a written response to the requestor. It is important to emphasize,
however, that at this time all policies and procedures are still in a development phase and will
continue to be analyzed and amended as the Agency learns more through the PVS pilot program.

SEC will coordinate with GC, OAA, and other applicable offices and/or bureaus to develop an
appropriate mechanism and identify the offices which will be responsible for de-conflicting
opposing opinions regarding specific awards. This process is expected to be developed in
concert with related policies and procedures to be outlined in the ADS chapter during the first
quarter of calendar year 2008 as well as the pilot program in West Bank/Gaza.

Audit Recommendation No. 4:

We recommend that the Office of Security develop a briefing document that summarizes
current USAID offices’ anti-terrorism roles and responsibilities and disseminate the
document for Agency use.

SEC Response:

In cooperation with GC, OAA, and other applicable offices and/or bureaus, SEC will be
developing guidance on the antiterrorism roles and responsibilities of each office/bureau in the
Agency. In a similar vein, SEC is aware that the Office of the Secretary of State is preparing to
release a document which outlines the Department of State’s approach to the NGO vetting issue
and provides basic guidance to its bureaus, offices, and USAID. In turn, USAID will also be
required to provide similar guidance to its bureaus and missions. SEC looks forward to active
participation in the development of the USAID guidance and anticipates that the guidance will
outline USAID’s interim and long term vetting solutions. It is expected that an appropriate
USAID briefing document will be published after public comment is received and addressed in
response to the Privacy Act notices which were published in July and October of 2007.

Audit Recommendation No. 5:

We recommend that the Office of Security (a) develop procedures to routinely document and
review database system requirements, prepare cost estimates, analyses, and milestones; and (b)
document management decisions.

SEC Response:

SEC has been involved in the development and documentation of system requirements for the
West Bank/Gaza specific PVS database since March 2006. SEC has coordinated directly with
WBG Mission staff and USAID Chief Information Officer (CIO) personnel since the related
GAO and USAID IG audit of the USAID WBG vetting program. SEC’s past and on-going
coordination includes participation in the development of a new vetting database (PVS) for the



                                                                                                  28
                                                                                APPENDIX II


WBG Mission. This new database was foreseen as the platform to support what could be a
centralized PVS database to support numerous USAID programs. To this end, SEC received
$800K in FY 2007 Operating Expense (OE) funds to support further development and
automation of the database to enhance the vetting process for USAID WBG and potentially other
programs in the future. Requirements and costs are routinely coordinated between SEC, CIO,
the Mission and IT contractors. SEC will continue to pursue enhancements to the vetting process
and infrastructure to support the USAID WBG Mission and with CIO representatives, ensure
proper documentation of system requirements and resource needs. SEC will continue to monitor
and document the system requirements as it concerns the process in USAID WBG. SEC will also
ensure that any additional technology investment receives all proper fiscal and budgetary
approvals from the Agency or other USG Offices/Departments. Subsequent to A/AID policy
determination regarding the continuation and expansion of the vetting program, SEC will
monitor, document and coordinate broader resource implications with appropriate USAID
offices.

Audit Recommendation No. 6:

We recommend that the Office of Security develop, implement and communicate procedures
in its anti-terrorism measures to vet both U.S. and non-U.S.-based partners.

SEC Response:

To permit collection of information from and screening of U.S. persons, SEC, the USAID
Privacy Office, and GC published the required administrative notices in the federal register.
These notices included a System of Record Notice (SORN), Proposed Rulemaking and a
Paperwork Reduction Act Request (Proposed Collection) 23 . These notices prescribed mandatory
public comment periods for which a considerable number of responses were received. GC and
the Privacy Office have categorized and reviewed the responses and are formulating a Final
Rulemaking to be submitted to the Federal Register should the Agency choose to move forward
with the PVS program. This notice will address all concerns and questions raised by the
respondents. After consideration of the public comments, absent any legal or policy limitations
that would preclude inclusion of U.S. persons, SEC will ensure U.S. persons and/or
organizations are included in the vetting directives and guidance. This matter will be addressed
in the policy determinations that will underpin the new ADS chapter. It is expected that these
issued could be resolved by the end of the first quarter in calendar year 2008. It should be
further noted that a final determination regarding possible exemptions to the Computer Matching
Act have not yet been received from the Department of Justice (DOJ) Data Integrity Board.
However, DOJ acknowledged that the Computer Matching Act would only apply to U.S. persons

23
   The cites for the respective notices are as follows:
SORN: http://a257.g.akamaitech.net/7/257/2422/01jan20071800/edocket.access.gpo.gov/2007/pdf/07-
3330.pdf
Rulemaking:http://a257.g.akamaitech.net/7/257/2422/01jan20071800/edocket.access.gpo.gov/2007/pdf/0
7-3331.pdf
Paperwork Reduction Act (Initial and Update/Extension):
http://a257.g.akamaitech.net/7/257/2422/01jan20071800/edocket.access.gpo.gov/2007/pdf/07-3555.pdf
http://a257.g.akamaitech.net/7/257/2422/01jan20071800/edocket.access.gpo.gov/2007/pdf/07-4775.pdf



                                                                                               29
                                                                                  APPENDIX II


who are receiving direct funding from USAID. The Computer Matching Act would not apply to
those U.S. persons being screened as Senior Officials wherein the Organization is the recipient of
the funding.

OAA Response:

Concerning the West Bank and Gaza, we note that while the applicable sub-section in our
appropriations legislation is entitled “Vetting,” the text of that sub-section does not expressly
refer to vetting or prescribe what measures USAID should take in carrying out this mandate.
Rather, it requires the Secretary of State to “take all appropriate steps” to ensure that ESF is not
provided to individuals or entities associated with terrorism. It is thus left up to the Executive
Branch to determine what procedures should be followed and vetting is merely one of a series of
measures that are available to the Mission. When formulating terrorist financing procedures,
each decision to vet or not carries an associated risk and an associated cost. The risk of course is
that funds might go to a terrorist while the cost is additional administrative burden and delay in
program implementation, which cumulatively must be considered given the limited resources
available to the Mission and the important foreign policy objectives in West Bank and Gaza.
The procedures selected by the Mission, i.e., to vet non-U.S. NGOs but not U.S. NGOs, were
intended to forge an administrative balance between the need to vet, especially where the risk is
greatest, and when to rely on other anti-terrorist financing measures to meet the desired result.
Congress was aware, as far back as 2002, that the Mission in West Bank and Gaza did not intend
to vet U.S. NGOs. Moreover, the recent GAO report did not recommend that the Mission act
otherwise.

Audit Recommendation No. 7:

We recommend that USAID’s Office of Acquisition and Assistance develop procedures to ensure
that database information regarding its awards is complete and accurate, and disseminated to
responsible offices.

OAA Response:

In the NMS system, the Place of Performance field was an optional field. Thus there were NMS
entries where the Place of Performance was left blank. This may have been because the place of
performance was in more than one country and there was no corresponding code for that
particular aggregation of countries. This problem won’t occur in GLAS, the system to be
deployed in all of Washington this fiscal year, because the Place of Performance field in GLAS
is a mandatory field. With the use of GLAS, this problem is resolved.

Audit Recommendation No. 8:

We recommend that the Office of Security review the proposed guidance to ensure that it
addresses anti-terrorism measures for USAID partners conducting multicountry programs.




                                                                                                 30
                                                                                   APPENDIX II



SEC Response:

Dependent on the final policy determinations by A/AID and information developed by the PVS
pilot program, SEC will coordinate with OAA and other applicable bureaus and/or offices to
develop procedures to address vetting which affects multi-country programs. Implementation of
such guidance will lie with the bureaus or offices initiating awards. The guidance will direct
vetting requests be transmitted to SEC based on the location of the activity or other determinant
factor, regardless of the location of the initiator. SEC will be in position to monitor the receipt of
vetting data, but will not be in position to determine the location, number or identity of
organizations or individuals requiring vetting, prior to their placement in the PVS. This matter
will be addressed as part of the policy determinations that will underpin the new ADS chapter. It
is expected that these issue could be resolved by the end of the first quarter in calendar year
2008.




                                                                                                   31
(This page intentionally left blank)




                                       32
                                                                                       APPENDIX III



                  Statutes, Regulations, and Executive Orders 24

Date             Name                    Purpose
Issued
10/18/1988       Computer                Amends the Privacy Act of 1974, as amended, to add
                 Matching and            procedural requirements for agencies to follow when
                 Privacy Protection      engaging in computer-matching activities; requires
                 Act of 1988             agencies that engage in matching activities to establish
                                         Data Protection Boards to oversee those activities.

04/24/1996       Antiterrorism and       Addresses fines and imprisonment regarding knowingly
                 Effective Death         providing material support or resources to terrorists or
                 Penalty Act of          designated foreign terrorist organizations.
                 1996
09/23/2001       Executive Order         Prohibits funding and supporting organizations or
                 13224                   individuals associated with terrorism.

10/26/2001       USA PATRIOT Act         Provides the Government with various tools to intercept
                                         and obstruct terrorism.

10/26/2001       18 United States        Addresses penalties and fines for harboring or
                 Code Section 2339       concealing terrorists; penalties include fines,
                 (Harboring or           imprisonment for no more than 10 years, or both.
                 Concealing
                 Terrorists)
09/16/2003       Homeland Security       Authorizes the integration and use of screening
                 Presidential            information.
                 Directive-6
08/27/2004       Homeland Security       Authorizes comprehensive terrorist-related screening
                 Presidential            procedures.
                 Directive -11
Various          Consolidated            Require the establishment of vetting procedures before
                 Appropriations          obligating assistance under the Economic Support
                 Resolution, 2003;       Fund for the West Bank and Gaza; designed to ensure
                 Consolidated            U.S. assistance is not provided to or through any
                 Appropriations          individual, entity, or institution associated with terrorist
                 Acts of 2004 and        activity, among other things.
                 2005




24
   These are a representative sample of the statutes, regulations, and Executive orders pertaining to anti-
terrorism issues.



                                                                                                        33
                                                                          APPENDIX III


Date         Name                  Purpose
Issued
11/14/2005   Section 559 of the    Requires vetting prior to the obligation of Economic
             Foreign               Support Funds for assistance to the West Bank and
             Operations, Export    Gaza and prohibits any funds appropriated under the
             Financing, and        Act from being provided for the purposes of
             Related Programs      recognizing or otherwise honoring individuals who
             Appropriations Act,   commit or have committed acts of terrorism.
             2006 (P. L. No.
             109-102)
02/02/2006   Federal Acquisition   Requires querying the U.S. Department of Treasury’s
             Regulation:           Office of Foreign Assets Control list prior to making
             Subpart 25.7,         awards; prohibits transactions with contractors and
             Prohibited            subcontractors that are on this list.
             Sources; Section
             25.701,
             Restrictions




                                                                                           34
                                                                          APPENDIX IV




                               USAID Guidance

Date         Name            Purpose
Issued
03/20/2002   Acquisition     Office of Acquisitions and Assistance (OAA) discusses
             and             the passage and effect of Executive Order (E.O.) 13224,
             Assistance      and includes antiterrorism language for contracts, grants,
             Policy          and cooperative agreements, as well as the Website
             Directive 02-   address for the Office of Foreign Assets Control.
             04
03/26/2002   2002-West       USAID/West Bank and Gaza guidance regarding
             Bank and        implementation of E.O. 13224.
             Gaza -05*
10/15/2002   ADS 508 –       Agency policy for safeguarding individual privacy and
             Privacy Act     ensuring access by individuals to records about
                             themselves; establishes policy for the disclosure of
                             personal information and assigns responsibilities within
                             the Agency for various actions to fulfill the requirements
                             of the Privacy Act of 1974.

08/26/2003   2003-DIR-01*    USAID/West Bank and Gaza guidance on vetting and
                             certifications.

09/24/2004   AAPD 04-14      Requires USAID agreement officers to obtain
                             certifications (from both U.S. and non-U.S.
                             nongovernmental organizations) that the organization
                             does not support terrorism before awarding a grant or
                             cooperative agreement. (Supersedes AAPD 02-19 and
                             AAPD 04-07.)

03/17/2006   2006-West       USAID/West Bank and Gaza Mission Order No. 21
             Bank and        updates antiterrorism measures regarding procedures to
             Gaza -13*       implement E.O. 13224.

05/26/2006   2006-West       USAID/West Bank and Gaza Mission Order No. 18
             Bank and        clarifies information in Mission Order No. 21
             Gaza -18*




                                                                                          35
                                                                             APPENDIX IV



  07/20/2006 Procurement            OAA procurement bulletin reminder regarding
             Executive Bulletin     requirement to determine the “responsibility” of
             2005-12                potential awardees; reminder about antiterrorism
                                    requirements of AAPD 02-04 and AAPD 04-14;
                                    requirement to check the Office of Foreign Assets
                                    Control list prior to making an award. Also includes
                                    terrorist financing clause in award guidance.

  1/30/2007    Automated            Assistance policy and procedures that includes
               Directives System    various required certifications, internal mandatory
               (ADS) 303 -          references and mandatory standard provisions for
               Grants and           grants and cooperative agreements to
               Cooperative          nongovernmental organizations.
               Agreements to
               Nongovernmental
               Organizations
  3/23/2007    ADS 302 - USAID      Guidance contains acquisition policy and procedures.
               Direct Contracting
                                    ADS 302.3.5.5, Prohibition on Transactions with
                                    Designated Entities Associated with Terrorism –
                                    Office of Foreign Assets Control (OFAC) List
                                    references AAPD 02-04, and includes a link to the
                                    OFAC list.

                                    ADS 302.3.6.12, Prohibition on Transactions with
                                    Designated Entities – Office of Foreign Assets Control
                                    (OFAC), references FAR Subpart 25.7 Prohibited
                                    Sources and relevant sections, as well as AAPD 02-
                                    04 and its requirements.


* This guidance is specific to the West Bank and Gaza.




                                                                                             36
                                                                          APPENDIX V




              Map: Terrorism Threat in Countries with USAID Activities




                                                         Minimal terrorism threat
Source: Office of Security
                                                         High terrorism threat

                                                         Major terrorism threat:
                                                         Iraq, Afghanistan, Pakistan, Lebanon,
                                                         Sudan, Yemen, and Morocco.




                                                                                                 37
(This page intentionally left blank)




                                       38
                                                                                      APPENDIX VI


                                   USAID Offices’
                      Antiterrorism Roles and Responsibilities
Office of Acquisition and Assistance (OAA)

        OAA is the only headquarters office that has incorporated antiterrorism
        guidance into the ADS. It has also developed policy directives and procurement
        correspondence to discuss, among other things, the effects of Executive Order
        13224 to prohibit transactions with individuals or entities who commit, threaten
        to commit, or support terrorism. OAA, which oversees USAID’s procurement
        functions, has developed these procedures to implement legislative
        requirements as well as to complement some of the Office of Security’s
        procedures.

        OAA published two ADS chapters 25 that incorporate guidance originally
        contained in the policy directives and include requirements for antiterrorism
        language such as mandatory clauses regarding compliance with antiterrorism
        laws for contracts, 26 grants, cooperative agreements, and similar documents. In
        addition, agreement and contracting officers and cognizant technical officers
        must verify that an applicant does not appear on the Department of Treasury’s
        Office of Foreign Assets Control (OFAC) list of designated terrorists and terrorist
        organizations, a practice that provides some assurance that potential and active
        recipients of USAID funds do not promote terrorism. The policy directives also
        include specific language that must be included in solicitations, contracts,
        program statements, application requests, grants or cooperative agreements.

        OAA also requires agreement officers to obtain antiterrorism certifications
        before awarding a grant or cooperative agreement to either a U.S. or non-U.S.
        nongovernmental organization (NGO). In the certification, the NGO is expected
        to state it has not provided, in the past 10 years, or will not knowingly provide,
        material support and resources to any individual or entity that engages in
        terrorist activities, 27 or to any individual or entity that appears in the OFAC or the
        United Nations Security Council Resolution 1267 lists. 28



25
   ADS 302, USAID Direct Contracting contains acquisition (contract) policy and procedures regarding the
prohibition of transactions with designated entities associated with terrorism. ADS 303, entitled Grants
and Cooperative Agreements to Nongovernmental Organizations discusses the USAID’s terrorist
financing certification requirements and the financing provisions to be included in USAID awards (grants
and cooperative agreements).
26
  As documented in appendix IX, acquisitions (as with contracts) and assistance (as in grants and
cooperative agreements) differ in terms of purpose, relationship, USAID role, and the like.
27
  OAA excludes the use of the antiterrorism certification for USAID contracts because doing so would
deviate from the Federal Acquisition Regulation (FAR), which must be approved in advance. Thus, the
requirement to sign the certification applies only to assistance instruments such as grants and
cooperative agreements.
28
  The United Nations Security Council Resolution 1267 list includes individuals and entities linked to the
Taliban, Usama bin Laden, or the al-Qaida organization.

                                                                                                       39
                                                                             APPENDIX VI


Office of Security (SEC)

       As of January 2007, SEC assumed the responsibility for vetting all non-U.S.-
       based West Bank and Gaza recipients, as well as performing ad hoc vetting for
       USAID missions and Washington bureaus. Before this time, the U.S. Embassy
       in Tel Aviv was responsible for vetting all non-U.S.-based potential partners in
       the West Bank and Gaza who applied for Agency grants and cooperative
       agreements.

       To conduct its work, SEC sends the intelligence community the information to
       be vetted. Once the vetting is completed, the intelligence community returns
       the vetting information to security officials, who in turn, provide either a
       derogatory or nonderogatory recommendation to mission or bureau officials. A
       derogatory recommendation is not binding on an agreement or contracting
       officer, who may choose to fund a recipient despite SEC’s recommendation.
       Moreover, since these recommendations and the ultimate decisions are not
       documented, no record is immediately accessible to facilitate an appeals
       process.

Office of General Counsel (GC)

       GC provides legal advice on antiterrorism issues and drafts key language in
       clauses and certifications. GC also: (a) works with USAID employees, as well
       as with the Departments of Justice, State, and Treasury to obtain the necessary
       approvals, waivers, and licenses, so that USAID, contractor, and partner
       employees can implement U.S. foreign policy without concerns over criminal or
       civil prosecution; (b) represents USAID, along with SEC, on interagency
       working groups on terrorist financing; (c) assists USAID offices with the
       administrative appeals process; and (d) coordinates with the Department of
       Justice on civil and criminal actions.

Office of Legislative and Public Affairs (LPA)

       LPA has an “information-sharing” role in vetting and responding to
       congressional or press inquiries. LPA interacts with Department of State
       counterparts as well as other USAID offices such as SEC and OAA, in
       responding to congressional and press inquiries concerning vetting.




                                                                                           40
                                                        APPENDIX VII




   USAID/West Bank And Gaza Vetting Process


Remainder of page redacted under 5 U.S.C. § 552(b)(2)




                                                                       41
(This page intentionally left blank)




                                       42
                                                                                          APPENDIX VIII




                          DATA INTEGRITY BOARD DECISION PROCESS




                  Start




     Determine if proposed vetting
                                                   Is proposed vetting            YES
     match is a computer matching
                                                 excluded under foreign
                program
                                                   counterintelligence
                                                        exclusion?


                      YES
NO                                                                                 Not subject to administrative
                                                              NO                  requirements of the Computer
                                                                                          Matching Act.
                                                                                           (End of process)


                                        YES             …... under               YES
         Determine if proposed
                                                     law enforcement
          vetting is a federal
                                                        exclusion?
            benefits match




                       NO                                     NO


     Not a computer matching program
                                                Subject to administrative &
      Not subject to administrative &
                                              procedural requirements of the
      procedural requirements of the
                                                 Computer Matching Act.
          Computer Matching Act.




                                                                       Yellow indicate Decision
                                                                       Green indicates beginning
                                                                        or end of program flow
Source: Office of Security




                                                                                                               43
(This page intentionally left blank)




                                       44
                                                                                                          APPENDIX IX


                          Comparison of Acquisitions Versus Assistance
            Topic                                      Acquisition                                           Assistance
Instrument Type                 Contract Types: fixed price, cost reimbursement, time    Grant or cooperative agreement
                                and materials, indefinite quantity
Purpose                         Purchase for Government’s direct benefit or use          Support or stimulate a public purpose
Relationship                    Vendor or contractor                                     Partner
USAID’s Role                    Purchaser                                                Donor/Funding Agency/Sponsor
Implementer’s Role              Provide Goods or Services to USAID                       Implement Program
M/OAA Officer                   Contracting Officer (CO)                                 Agreement Officer (AO)
Main implementer                Contractor                                               Recipient/Grantee
Sub implementers                Subcontractors                                           Subrecipients
Activity                        Work or services                                         Program
Description of Activity         Statement of Work                                        Program Description
Can focus on results?           Yes (performance-based service contracts)                Yes (results-oriented program descriptions)
Cost-sharing                    Very Rare                                                Often
Legal framework                 Federal Acquisition Regulations (FAR) Competition in     Federal Grant and Cooperative Agreement Act, 22
                                Contracting Act (CICA) AID Acquisition Regulation        CFR 226, Automated Directives System (ADS); 22
                                (AIDAR); 22 CFR pt. 216                                  CFR pt. 216
Competition                     Mandated by Statute                                      Encouraged by Policy
Exceptions to competition       AIDAR: Personal Services Overseas; Services less         ADS: Amendments; unsolicited application; critical
                                than $250,000 (overseas); Determination by AA or         to objectives of foreign assistance; small awards;
                                Administrator; Title XII (Land grant Universities);      exclusive/predominant capability
                                Continuation of specialized services
Solicitation methods            Request for Proposals (RFP), Invitation for Bids (IFB)   Request for Applications (RFA)
                                and Request for Quotes (RFQ).                            Annual Program Statement (APS)
Solicitation posting location   www.FedBizOpps.gov                                       www.Grants.gov
Offer                           Bid, proposal or quote                                   Application
Offeror                         Bidder or offeror                                        Applicant
After Award Exchanges           Post-Award Debriefing                                    Post-Award Discussions
Award protests                  Normally filed with USAID or GAO                         No formal procedure; handled informally within
                                                                                         USAID
Administrative Authority        CO has overall responsibility for contract               Limited by regulation to selected essential aspects
                                administration; Cognizant Technical Officer (CTO) has    in cooperative agreement – CTO delegated by AO
                                responsibility for all technical matters
Meetings after Award            Post-award Orientation Conference                        Post-award Implementation Meeting
Basis of Payment                Usually Fixed Price or Rate, or Cost Plus Fixed Fee      Costs
Timing of payment               Reimbursement, normally after incurrence                 Reimbursement, normally in advance
Changes after award             Modifications                                            Modifications
Performance disputes            CO’s final decision may be appealed to Board of          AO’s decision may be appealed within USAID to
                                Contract Appeals or Court of Federal Claims              Chief Assistance Officer, then to U.S. Court of
                                                                                         Claims
Termination rights              For default or unilaterally by USAID for Convenience     For cause, mutually, or changed circumstances


Source: Assistance Management for Cognizant Technical Officers workbook.




                                                                                                                                 45
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
